2008 FISMA Executive Summary
Report

        PUBLIC REDACTED VERSION




                           September 29, 2008
                                Report No. 451
                          4B   MEMORANDUM

                                  September 29, 2008

To:            Lew Walker, Acting Chief Information Officer

From:          H. David Kotz, Inspector General

Subject:       2008 FISMA Executive Summary Report, Report No. 451

This memorandum transmits the Securities and Exchange Commission, Office of
Inspector General’s (OIG) 2008 Federal Information Security Management Act (FISMA)
Executive Summary report. This report details our responses to Section C of the Office
of Management and Budget FISMA template. The information in the report is provided
as a result of our coordination and input from the Office of Information Technology
(OIT) and the Senior Agency Official for Privacy and was used to form a consolidated SEC
response.


The final report consists of three recommendations that are addressed to the OIT. OIT
concurred with all of the recommendations and indicated that appropriate action will be
taken. In addition to responding to the recommendations, OIT provided comments to
the draft report.

Should you have any questions regarding this report, please contact Jacqueline Wilson
at 202‐551‐6326.

Attachment

cc:	    Peter Uhlmann, Chief of Staff
        Diego Ruiz, Executive Director, Office of the Executive Director
        Ralph Mosios, Acting Chief Security Officer, Office of Information Technology
        Barbara Stance, Chief Privacy Office, Office of Information Technology
        Darlene Pryor, Management Analyst, Office of the Executive Director

        Rick Hillman, Managing Director of Financial Markets and Community
          Investment, GAO

               P U B L I C      R E D A C T E D         V E R S I O N

2008 FISMA Executive Summary Report                                   September 29, 2008
Report No. 451
                                       Page 1 of 6
                            E XECUTIVE SUMMARY
                            0B




In June 2008, the U.S Securities and Exchange Commission (SEC), Office of Inspector
General (OIG), contracted with the Electronic Consulting Services, Inc. (ECS) to assist
with the completion and coordination of OIG’s input to the SEC’s response to the Office
of Management and Budget (OMB) Memorandum M‐08‐21. The Memorandum provides
instructions and templates for meeting the FY 2008 reporting requirements under the
Federal Information Security Management Act of 2002 (FISMA) Title III, Pub. L. No. 107
347.

ECS commenced work on the project in early August 2008, when the final FISMA
templates were promulgated by the OMB. ECS’ principle tasks included the completion
of the OIG portion of the templates and the development of an Executive Summary
report.

B ACKGROUND
10B




FISMA provides the framework for securing the Federal government’s information
technology. All agencies must implement the requirements of FISMA and annually
report to the OMB and Congress the effectiveness of their Privacy and information
security program. OMB uses the information to help evaluate agency‐specific and
government‐wide privacy performance, development of its annual security report to
Congress, assist in improving and maintaining adequate agency privacy performance,
and inform development of the E‐Government Scorecard under the President’s
Management Agenda.

O BJECTIVES
1B




The objectives of this report are to provide background information, clarification, and
recommendations regarding the OIG’s response and input to Section C of the OMB
reporting template. Generally, the reporting categories and questions were generally
the same as in 2007; however, there were some updates based on security and privacy
policies issued this year. The 2008 reporting topics for the OIG reporting template
include:

      •   FISMA Systems Inventory

                P U B L I C      R E D A C T E D      V E R S I O N

2008 FISMA Executive Summary Report                                 September 29, 2008
Report No. 451
                                      Page 2 of 6
      •	 Certification and Accreditation, Security Controls Testing, and Contingency Plan
         Testing

      •	 Evaluation of Agency Oversight of Contractor Systems and Quality of Agency
         System Inventory

      •	 Evaluation of Agency Plan of Action and Milestone (POA&M) Process

      •	 Inspector General (IG) Assessment of the Certification and Accreditation Process

      •	 IG Assessment of the Agency Privacy Program

      •	 IG Assessment of the Agency Privacy Impact Assessment (PIA) Process

      •	 Configuration Management

      •	 Incident Reporting

      •	 Security Awareness Training

      •	 Collaborative Web Technologies and Peer to Peer File Sharing

      •	 E‐Authentication Risk Assessments

There are also some additional questions related to OMB Memorandum M‐08‐09 of
January 18, 2008, New FISMA Privacy Reporting Requirements for FY 2008.

The FISMA IG Reporting template contains responses to a fixed set of options designed
into the template. In some cases, the responses are either numeric or binary (yes/no).
In other cases, responses are limited to qualitative assessments (excellent, good, poor,
etc.), or percentages estimates (96% to 100%, 81% to 95%, etc.). The reporting
template also provides several fields for optional text comments.

R ESULTS
12B




Key findings and results for the 2008 FISMA evaluation include:

      •	 Our initial OIG evaluation of systems used by the Division of Enforcement for
         referrals and the Office of Compliance Inspections and Examinations (OCIE) to
         assist in the monitoring of registered advisers revealed there were no significant
         issues.

                 P U B L I C      R E D A C T E D        V E R S I O N

2008 FISMA Executive Summary Report                                     September 29, 2008
Report No. 451
                                         Page 3 of 6
   •	 The SEC operates a total of 49 systems. Forty‐four of the systems have been
      evaluated as having moderate‐system impact levels. The remaining systems
      were evaluated as having a low system impact level.

   •	 SEC almost always performs oversight and evaluations to ensure information
      systems used or operated by agency contractors, or other organizations on
      behalf of the agency, to meet applicable requirements.

   •	 The SEC has developed an inventory of major information systems.

   •	 The SEC’s POA&M process provides an effective roadmap for continuous security
      improvement, assists with prioritizing corrective action and resource allocation,
      and is a valuable management and oversight tool.

   •	 The SEC’s overall Certification and Accreditation program is assessed as good.

   •	 The Privacy Office has made significant progress in its development of privacy
      resources, in outreach within the SEC and Regional Offices, and in
      benchmarking externally with other agencies.

   •	 The SEC has developed and disseminated a formal, documented, configuration
      management policy (implementation guidance) that satisfactorily addresses
      security configuration management requirements.

   •	 SEC systems implement common security configurations; including those
      available through National Institute of Standards and Technology (NIST) most of
      the time.

   •	 SEC did not provide evidence            that   they   have    implemented        the
      ……………………………………………….. .




              P U B L I C      R E D A C T E D        V E R S I O N

2008 FISMA Executive Summary Report                                 September 29, 2008
Report No. 451
                                      Page 4 of 6
S UMMARY OF RECOMMENDATIONS
13B




      1.	 OIT needs to complete the security controls and contingency plan testing for the
          remaining systems.

      2.	 OIT needs to address the requirements for _____________________, to include:

         •	 Adopting and implementing the _____________________,.

         •	 Modifying all contracts related to common security settings to include the
            New Federal Acquisition Regulation 2007‐004 language.

         •	 Implementing the for _____________________,.

      3.	 OIG recommends that this Executive Summary Report, along with the completed
          OIG Reporting Template (provided separately), be used to develop the SEC’s
          annual consolidated FISMA Report in accordance with OMB Memorandum M
          08‐21.




                 P U B L I C     R E D A C T E D         V E R S I O N

2008 FISMA Executive Summary Report                                    September 29, 2008
Report No. 451
                                        Page 5 of 6
                       AUDIT REQUEST AND IDEAS

The Office of Inspector General welcomes your input. If you would like to request an
audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F. Street N.E.
Washington D.C. 20549‐2736
202‐551‐6037
202‐772‐9265
Email: oig@sec.gov




       Hotline
       To report fraud, waste, abuse, and mismanagement at SEC,
       contact the Office of Inspector General at:

       Phone: 877.442.0854

       Web-Based Hotline Complaint Form:
       www.reportlineweb.com/sec_oig




              P U B L I C       R E D A C T E D        V E R S I O N

2008 FISMA Executive Summary Report                               September 29, 2008
Report No. 451
                                       Page 6 of 6
